C@OCKLE

2311 Douglas Street Le ga 1 Bri e fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-123

SHARONELL FULTON, ET AL., PETITIONERS
v.
CITY OF PHILADELPHIA, ET AL.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3rd day of June, 2020, send out from
Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE COUNCIL FOR CHRISTIAN COLLEGES
AND UNIVERSITIES, THE ASSOCIATION FOR BIBLICAL HIGHER EDUCATION, AND THIRTY-ONE INDIVIDUAL
RELIGIOUS. COLLEGES AND UNIVERSITIES SUPPORTING PETITIONERS in the above entitled case. All parties
required to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were
plainly addressed to the following:

SEE ATTACHED

To be filed for:
GENE C. SCHAERR.
Counsel of Record
ERIK S. JAFFE
HANNAH C. SMITH
KATHRYN E. TARBERT
JOSHUA J. PRINCE*
SCHAERR|JAFFE LLP
1717K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
gschaerr@schaerr-jaffecom

Subscribed and sworn to before me this 3rd day of June, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL MOTARY-State of lsbraska
RENEE J. GOSS
My Comm. Exp, September ยง, 2028

    
   

Notary Public Affiant

 

 
 

 

Attorneys for Petitioners

Mark Leonard Rienzi The Becket Fund for Religious Liberty (202) 955-0095
Counsel of Record 1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036

mrienzi@becketlaw.org

Party name: Sharonell Fulton, et al.

 

Attorneys for Respondents

Leslie Cooper American Civil Liberties Union (212) 519-7815
Counsel of Record 125 Broad Street
New York, NY 10004

lcooper@aclu.org

Party name: Intervenor Support Center for Child Advocates and Philadelphia
Family Pride

Neal Kumar Katyal | Hogan Lovells US LLP (202) 637-5528
Counsel of Record 555 Thirteenth St., N.W.
Washington, DC 20004

neal.katyal@hoganlovells.com

Party name: City of Philadelphia, Department of Human Services for the City of
Philadelphia, Philadelphia Commission on Human Relations

 

 

 
